No. ____________
IN THE

Supreme Court of the United States
_______________

KT BURGEE,
a/k/a Kape Teal Burgee,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
_______________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
_______________
APPENDIX
_______________
JASON J. TUPMAN
Federal Public Defender, Counsel of Record
MOLLY C. QUINN
Chief Appellate Attorney
BRYAN DEAN
RANDALL B. TURNER
Assistant Federal Public Defenders
Office of the Federal Public Defender
Districts of South Dakota and North Dakota
101 South Main Street, Suite 400
Sioux Falls, South Dakota 57104
jason_tupman@fd.org
605-330-4489
Attorneys for Petitioner

TABLE OF APPENDICES
Page(s)
Appendix A – Court of appeals opinion (February 24, 2021) ..................................... 1a
Appendix B – District court opinion and order denying motion to dismiss
indictment (March 25, 2019).............................................................. 10a
Appendix C – District court findings of fact & conclusions of law
(July 10, 2019) .................................................................................... 25a
Appendix D – Court of appeals order denying petition for rehearing
(April 26, 2021) ................................................................................... 44a
Appendix E – 34 U.S.C. § 20911 ............................................................................... 45a

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-3034
___________________________
United States of America
lllllllllllllllllllllPlaintiff - Appellee
v.
KT Burgee, also known as Kape Teal Burgee
lllllllllllllllllllllDefendant - Appellant
____________
Appeal from United States District Court
for the District of South Dakota - Pierre
____________
Submitted: October 20, 2020
Filed: February 24, 2021
____________
Before SMITH, Chief Judge, LOKEN and GRUENDER, Circuit Judges.
____________
SMITH, Chief Judge.
KT Burgee pleaded guilty to sexual exploitation of a minor under South Dakota
law. For two years, he regularly registered as a sex offender as required by the federal
Sex Offender Registration and Notification Act (SORNA). Then, he stopped. Burgee
was charged and found guilty of failing to register under SORNA in federal district

(1a)
Appellate Case: 19-3034

Page: 1

Date Filed: 02/24/2021 Entry ID: 5007703

court.1 Burgee’s SORNA obligation arose because he had been convicted of an
offense that involved “conduct that by its nature is a sex offense against a minor.” 34
U.S.C. § 20911(7)(I). On appeal, he urges us to overrule our decision in United States
v. Hill, 820 F.3d 1003 (8th Cir. 2016); reverse the district court for relying on
unreliable evidence; and hold § 20911(7)(I) void for vagueness. We deny each of
these claims for relief and affirm the district court.
I. Background
In June 2014, Burgee pleaded guilty to violating a South Dakota statute titled
“Sexual exploitation of a minor.”2 The factual basis for the plea was this: He “had
contact with a minor,” and “his DNA was found on her neck and . . . in her
underwear.” Mem. in Supp. of Def.’s Mot. to Dismiss Indictment, Ex. C, at 7:5–8,
United States v. Burgee, No. 3:18-cr-30164-RAL-1 (D.S.D. 2019), ECF No. 27-3. At
the plea hearing, Burgee acknowledged that his plea would require him to register as
a sex offender and undergo a psychosexual evaluation.
As required, Burgee registered as a sex offender pursuant to both SORNA and
South Dakota law. But in September 2016, he stopped registering. Two years later,
Burgee was arrested and indicted by a federal grand jury for failing to register under
SORNA, in violation of 18 U.S.C. § 2250(a).
During the federal proceedings, Burgee filed a motion to dismiss the
indictment, arguing three grounds for relief. First, he contended that the district court

1

The Honorable Roberto A. Lange, Chief Judge, United States District Court
for the District of South Dakota.
2

In relevant part, the statute provides, “A person is guilty of sexual exploitation
of a minor if the person causes or knowingly permits a minor to engage in an activity
or the simulation of an activity that: (1) Is harmful to minors . . . .” S.D. Codified
Laws § 22-22-24.3.
-2(2a)
Appellate Case: 19-3034

Page: 2

Date Filed: 02/24/2021 Entry ID: 5007703

should apply the categorical approach to determine whether his state-law conviction
qualified as a sex offense under § 20911(7)(I). Second, he averred that even if the
district court could properly apply the alternative circumstance-specific approach, it
should look only to evidence used for the plea hearing. Lastly, he argued
§ 20911(7)(I) should be declared void for vagueness. The district court denied his
motion as to each of these grounds. The case proceeded to a bench trial where Burgee
renewed his motion to dismiss. It was again denied.
During the trial, the district court heard evidence additional to that relied on by
the state court in Burgee’s plea hearing. Specifically, the government submitted video
of the minor victim’s forensic interview, which was recorded three days after Burgee
committed the offending acts.3 In her interview, the 14-year-old girl recounted how
Burgee attended her mother’s party. During the party, she was sleeping in bed with
her little sister. She awakened with Burgee beside her and kissing her face. Burgee
took off her clothes and raped her. She recalled feeling fluid coming out of her vagina
afterwards. The district court also heard evidence from a nurse practitioner who
evaluated the 14-year-old girl twice within two and a half weeks of the underlying
conduct. The nurse practitioner found that the girl’s injuries were consistent with rape
and took swabs to collect DNA foreign to the girl. And the government presented a
forensic scientist who analyzed semen found on the girl’s underwear. It matched
Burgee’s DNA. The district court also admitted Burgee’s state sex-offender
registration materials in which Burgee acknowledged his duty to register under South
Dakota law.
The district court found that Burgee had been convicted of a qualifying
SORNA sex offense—i.e., “an offense against a minor that involves . . . [a]ny conduct
that by its nature is a sex offense against a minor.” 34 U.S.C. § 20911(7)(I). Because

3

Burgee waived hearsay and foundation objections to the video interview.
-3(3a)

Appellate Case: 19-3034

Page: 3

Date Filed: 02/24/2021 Entry ID: 5007703

the qualifying-offense element was the only element of his conviction that Burgee
challenged, the district court found him guilty of failing to register as a sex offender.
II. Discussion
Burgee argues that the district court should be reversed for three reasons. First,
he argues that the district court should have employed the categorical approach, not
the circumstance-specific approach, to determine whether his conviction qualified as
a sex offense under § 20911(7)(I). Next, he contends that, even under the
circumstance-specific approach, the district court should have limited its review to
evidence used at his plea hearing because it was the only reliable evidence. Finally,
Burgee urges us to find § 20911(7)(I) void for vagueness.
SORNA obligates those identified as sex offenders to register and maintain
current information with the appropriate authorities. As relevant here, it defines a sex
offender as a person “convicted of” “a criminal offense that is a specified offense
against a minor.” 34 U.S.C. § 20911(1) & (5)(A)(ii). And a “specified offense against
a minor” includes “an offense against a minor that involves . . . [a]ny conduct that by
its nature is a sex offense against a minor.” Id. § 20911(7)(I). Put simply, a sex
offender under § 20911(7)(I) is a person who was convicted of an offense against a
minor that involved conduct that by its nature is a sex offense against a minor.
A. Circumstance-Specific Approach
When determining whether a defendant’s prior conviction falls within the
ambit of a federal statute, courts apply different approaches depending on the
statutory language.4 This court employs the circumstance-specific approach under
4

For example, in Nijhawan v. Holder, the Supreme Court held that a statutory
provision, which read “an offense that . . . involves fraud or deceit in which the loss
to the victim or victims exceeds $10,000,” required the circumstance-specific
approach because “the italicized language” “refers to the particular circumstances in
which an offender committed a (more broadly defined) fraud or deceit crime on a
-4(4a)
Appellate Case: 19-3034

Page: 4

Date Filed: 02/24/2021 Entry ID: 5007703

§ 20911(7)(I). Under this approach, we examine the specific conduct the defendant
engaged in while committing the underlying crime. Hill, 820 F.3d at 1005. Burgee
urges us to use the categorical approach. Under that approach, courts must determine
if the ordinary case, or generic commission, of the underlying crime falls within the
statute. See Sessions v. Dimaya, 138 S. Ct. 1204, 1211 (2018).
In Hill, we held that § 20911(7)(I) “manifestly invites” application of the
circumstance-specific approach. 820 F.3d at 1005. Here, the district court followed
the circumstance-specific approach to determine that Burgee’s underlying conduct
was “conduct that by its nature is a sex offense against a minor.” 34 U.S.C.
§ 20911(7)(I). But Burgee asks us to overrule Hill and instead apply the categorical
approach. According to Burgee, Hill’s holding is suspect because of the subsequent
Supreme Court decisions in Dimaya and Davis. See Gresham v. Swanson, 866 F.3d
853, 855 (8th Cir. 2017) (explaining that a prior panel decision controls “unless an
intervening Supreme Court decision has superseded it”).
Dimaya and Davis, however, are distinguishable. In Dimaya and Davis, the
Supreme Court interpreted 18 U.S.C. §§ 16(b) and 924(c)(3)(B), respectively. Both
statutes define, in relevant part, “crime of violence” as an “offense that . . . by its
nature, involves a substantial risk that physical force against the person or property
of another may be used in the course of committing the offense.” 18 U.S.C. §§ 16(b)
& 924(c)(3)(B). In both cases, the Court applied the categorical approach, relying
heavily on the term offense, which meant “a generic crime,” not “the specific acts in

particular occasion.” 557 U.S. 29, 32 (2009) (alteration in original) (quoting 8 U.S.C.
§ 1101(a)(43)(M)(i)). And, as discussed below, the Supreme Court in United States
v. Davis addressed a statutory provision defining a qualifying offense as one “that is
a felony” and “that by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of committing the
offense” and stated that “the statutory text commands the categorical approach.” 139
S. Ct. 2319, 2324, 2328 (2019) (quoting 18 U.S.C. § 924(c)(3)(B)).
-5(5a)
Appellate Case: 19-3034

Page: 5

Date Filed: 02/24/2021 Entry ID: 5007703

which an offender engaged on a specific occasion.” Davis, 139 S. Ct. at 2328
(quoting Nijhawan, 557 U.S. at 33–34); see also Dimaya, 138 S. Ct. at 1217
(explaining that the statutory “text creates no draw: Best read, it demands a
categorical approach”). Thus, it was the statutory text in Davis and Dimaya that
required the Court “to look to the elements and the nature of the offense of
conviction, rather than to the particular facts relating to petitioner’s crime.” Davis,
139 S. Ct. at 2328 (quoting Leocal v. Ashcroft, 543 U.S. 1, 7 (2004)); see also
Dimaya, 138 S. Ct. at 1218 (stating that “the absence of terms alluding to a crime’s
circumstances, or its commission, makes a fact-based interpretation an uncomfortable
fit”).
Hill survives the decisions in Davis and Dimaya. Just as Davis’s and Dimaya’s
holdings are based on statutory text, so too is Hill’s holding. The Hill court held that
because § 20911(7)(I) explicitly references the offense conduct, the statutory “text
evidently commands . . . a circumstance-specific approach.” Hill, 820 F.3d at 1006.
Conduct, after all, is “[t]he way a person acts.” Conduct, The American Heritage
Dictionary of the English Language (5th ed. 2011). Thus, Hill explained that
arguments for a categorical approach “simply founder[] on the plain words of the
statute.” Hill, 820 F.3d at 1005. In fact, the Hill court found the text so clear that it
declined to give deference to the Attorney General’s regulation that indicated the
categorical approach should apply to the statute. Id. at 1006. Hill’s precedential value
has not been altered, and it forecloses Burgee’s argument.
B. Reliable Evidence
Burgee also challenges the district court’s reliance on evidence that was not
used during his plea hearing. According to Burgee, district courts employing the
circumstance-specific approach should only consider the “facts the defendant
admitted or was convicted of as shown by the prior judicial record.” Appellant’s Br.
at 15–16. The relevant documents under his approach would be “the statutory
subdivision of conviction, the charging instrument (insofar as it tracks the actual
-6(6a)
Appellate Case: 19-3034

Page: 6

Date Filed: 02/24/2021 Entry ID: 5007703

conviction, as here), the judgment of conviction, and—most crucial—the plea
colloquy and factual basis.” Appellant’s Reply Br. at 7 n.6.
Again, Hill resolves Burgee’s issue. In Hill we explicitly declined to limit
district courts’ review under § 20911(7)(I) to specific documents, like those the
Supreme Court had laid out in Shepard v. United States, 544 U.S. 13 (2005). 820 F.3d
at 1005. In Shepard, the Supreme Court held that when sentencing courts apply the
categorical approach, they are “generally limited to examining the statutory
definition, charging document, written plea agreement, transcript of plea colloquy,
and any explicit factual finding by the trial judge to which the defendant assented.”
544 U.S. at 16. The Shepard Court explained that a sentencing court could not delve
beyond the facts the defendant was convicted of to “make a disputed finding of fact”
because the Constitution “guarantee[s] a jury’s finding of any disputed fact essential
to increase the ceiling of a potential sentence.” Id. at 25.
In Hill, because we did not apply the categorical approach, our course tacked
differently. Instead of limiting district courts to specific documents, we held that they
may “consider any reliable evidence.” 820 F.3d at 1005. This does not run afoul of
Shepard because the constitutional evidentiary concerns that arise during factfinding
at sentencing are not present at the guilt phase of a trial. Under Shepard, a sentencing
court cannot engage in factfinding because there is no jury present to determine the
facts. Shepard, 544 U.S. at 25 (stating that “the Sixth and Fourteenth Amendments
. . . guarantee a jury’s finding of any disputed fact essential to increase the ceiling of
a potential sentence”). Under Hill, defendants get a trial and thus have the right to a
jury. This is just what the Sixth Amendment contemplates: “[A] jury—not a
sentencing court—will find such facts, unanimously and beyond a reasonable doubt.”
Descamps v. United States, 570 U.S. 254, 269 (2013). Burgee got just such a trial.
The court conducted a trial to determine the facts of Burgee’s offense conduct. The
government had to prove the facts beyond a reasonable doubt, and Burgee had the
option to exercise his right to a jury trial. He chose not to.
-7(7a)
Appellate Case: 19-3034

Page: 7

Date Filed: 02/24/2021 Entry ID: 5007703

When determining whether a defendant’s prior offense involves “conduct that
by its nature is a sex offense against a minor,” a district court may admit any reliable
evidence. Hill, 820 F.3d at 1005. Reliable evidence is simply evidence that is
trustworthy enough to be admissible under the rules of evidence. Cf. Kuhn v. Wyeth,
Inc., 686 F.3d 618, 625 (8th Cir. 2012) (“The Supreme Court explained that
evidentiary reliability means trustworthiness.”); see also United States v. Sutton, 916
F.3d 1134, 1140 (8th Cir. 2019) (holding that the challenged hearsay was “not
reliable” because the “witnesses were at times admittedly untruthful, had accounts
that were internally inconsistent and inconsistent with one another, and demonstrated
motives to minimize their own involvement in the assault”). District courts regularly
perform factfinding and are well equipped to assess evidence admissibility. The
district court did so here. Burgee does not challenge the district court’s inclusion of
any specific piece of evidence, so our inquiry is at an end.
C. Vagueness
Finally, Burgee challenges § 20911(7)(I) as void for vagueness. We review
void-for-vagueness challenges de novo. United States v. Buie, 946 F.3d 443, 445 (8th
Cir. 2019).
When reviewing for vagueness, we first determine if a statute is vague as
applied to the defendant’s conduct, and only if it is will we consider whether a statute
is facially unconstitutional. United States v. Bramer, 832 F.3d 908, 909–10 (8th Cir.
2016). This is because “a ‘plaintiff who engages in some conduct that is clearly
proscribed cannot complain of the vagueness of the law as applied to the conduct of
others.’” Adam & Eve Jonesboro, LLC v. Perrin, 933 F.3d 951, 958 (8th Cir. 2019)
(quoting Holder v. Humanitarian Law Project, 561 U.S. 1, 20 (2010)). Thus, if “the
statute gave adequate warning, under [the defendant’s] specific set of facts, that the
defendant’s behavior was a criminal offense,” then the statute is not vague. United
States v. Palmer, 917 F.3d 1035, 1038–39 (8th Cir. 2019) (quoting United States v.
Washam, 312 F.3d 926, 931 (8th Cir. 2002)).
-8(8a)
Appellate Case: 19-3034

Page: 8

Date Filed: 02/24/2021 Entry ID: 5007703

As we have explained, the district court’s factual findings were proper.
Burgee’s actions with the 14-year-old victim of his offense constituted “conduct that
by its nature is a sex offense against a minor” under § 20911(7)(I). Burgee failed to
register as a sex offender under SORNA and South Dakota law for two years. His
conduct was clearly proscribed. Section 20911(7)(I) is thus not void for vagueness
as applied to Burgee.
III. Conclusion
We follow the precedent established in Hill and employ the circumstancespecific approach to the application of § 20911(7)(I). The district court used reliable
evidence in finding the requisite facts by putting the government’s proof through the
rigors of the admissibility standards of the rules of evidence in a contested hearing.
We also conclude that § 20911(7)(I) is not void for vagueness as applied to Burgee.
Accordingly, we affirm.
______________________________

-9(9a)
Appellate Case: 19-3034

Page: 9

Date Filed: 02/24/2021 Entry ID: 5007703

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 1 of 15 PageID #: 188

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
CENTRAL DIVISION

UNITED STATES OF AMERICA,

3:18-CR-30164-RAL

Plaintiff,
OPINION AND ORDER DENYING
MOTION TO DISMISS INDICTMENT

vs.

KT BURGEE,

a/k/a Kape Teal Burgee,
Defendant.

The Sex Offender Registration and Notification Act(SORNA)requires people who have
been convicted of certain "sex offenses" to periodically register in the jurisdiction where they

reside. 34U.S.C. §§ 20911(1),20913-20914. Defendant KT Burgee pleaded guilty in state court

to sexual exploitation of a minor and received a suspended sentence. Docs. 27-1, 27-3. Burgee

allegedly failed to register as a sex offender and was later indicted by a federal grand jury for
failing to register as a sex offender in violation of 18 U.S.C. § 2250. Doc. 1. Burgee moved to
dismiss the indictment, arguing that his state conviction does not qualify as a "sex offense" under
SORNA and that the relevant definition of a "sex offense" is void for vagueness. Doc. 26. This

Court denies Burgee's motion because ajury must determine whether his prior conviction is a"sex
offense" and a decision on Burgee's vagueness argument would be premature.
I.

Background

Burgee was charged in state court with sexual exploitation ofa minor under South Dakota
Codified Law(SDCL)§ 22-22-24.3. That statute reads in relevant part:

(10a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 2 of 15 PageID #: 189

A person is guilty of sexual exploitation of a minor if the person
eauses or knowingly permits a minor to engage in an aetivity or the
simulation of an activity that:

(1) Is harmful to minors;
(2) Involves nudity; or
(3) Is obscene.

Consent to performing these proscribed acts by a minor or a minor's

parent, guardian, or custodian, or mistake as to the minor s age is
not a defense to a charge of violating this section.

SDCL § 22-22-24.3. Burgee's information cited to SDCL § 22-22-24.3(2)but seemed to concern

§ 22-22-24.3(1), alleging that Burgee "did cause or knowingly permit a minor to engage in an
aetivity or the simulation of an aetivity that is harmful to minors." Doe. 27-2.

Burgee pleaded guilty to the offense in June 2014. Doe. 27-3. He had the following
exchange with the state judge about the factual hasis for his plea:
THE COURT: Mr. Burgee, back on March 17th, did you have
contact with an individual who was under the age of 16?
[BURGEE]: Yes, Your honor.

THE COURT: And was that contact without the permission of that
individual?

([Burgee] conferred with counsel.)
[BURGEE]: No,Your Honor.
THE COURT: It was not without the consent ofthe individual?
[BURGEE]: Yes.

THE COURT: But you knew this individual was not of age; is that
correct?

[BURGEE]: At the time I didn't.
THE COURT: Ms. Kloeppner.^
MS. KLOEPPNER: I can fill in some blanks. Your Honor.
THE COURT:Please.

MS. KLOEPPNER: The Information in this ease alleges that he

permitted a minor to engage in an activity or the simulation of an
aetivity that is harmful to minors. In this ease Mr. Burgee had
contact with a minor. The evidence in this ease, the forensic
evidence showed that his DNA was found on her neck and his DNA
was found in her underwear. I think that would provide the factual
basis.

THE COURT:Do you deny that?

[BURGEE]: No, your honor.

^Ms. Kloeppner was the prosecutor in state court.
2

(11a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 3 of 15 PageID #: 190

Doc. 27-3 at 3. In August 2014, the state judge gave Burgee a suspended sentence oftwo years'

imprisonment and ordered that he register as a sex offender "pursuant to South Dakota law." Doc.
27-1.

Over four years later, a federal grand jury indicted Burgee in this case for failing to register
as a sex offender. Doc. 1. The indictment alleges that Burgee was required to register under

SORNA "by reason of a conviction under state law." Doc. 1. The parties agree that Burgee's
2014 conviction for sexual exploitation of a minor is the conviction referenced in the indictment,

and both parties have filed documents concerning this conviction. Burgee filed the information,
the transcript from his change of plea hearing, and the judgment of conviction. The government

filed police and lab reports as well as sex offender registration forms Burgee completed.
According to the police report,the victim ofBurgee's conviction was a fourteen-year-old girl who
said that Burgee had raped her during a party at her mother's house. Doc. 28-3 at 1, 4. The girl
told a forensic interviewer that Burgee had entered the bedroom where she was sleeping, stripped

off her clothes, and forced his penis into her vagina. Doc. 28-2 at 4. The lab reports the

government submitted state that semen was detected on the victim's panties as well as her vaginal
and anal/perineum swabs. Doc. 28-3 at 1. DNA obtained from the sperm in the victim's panties
matched the DNA profile obtained from Burgee.^ Doc. 28-3. The sex-offender registration forms

the government submitted show that Burgee registered eleven times between August 27,2014 and
August 5, 2016. Docs. 28-5 through 28-15.
II.

Analysis

^The lab report stated that the "probability ofselecting an unrelated individual at random having a
DNA profile that would match the partial DNA profile obtained from the sperm cell fraction
[obtained from the panties] is approximately 1 in 70 million." Doc. 28-3 at 4.
(12a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 4 of 15 PageID #: 191

A. Burgee's Argument That He is Not Required to Register Under SORNA

Congress enacted SORNA to protect the public from child predators and sexually violent

criminals by ensuring that these individuals register as sex offenders. 34 U.S.C.§ 20901;Reynolds
V, United States. 565 U.S.432,435(2012). To this end,§ 2250 makes it a crime for a person who

"is required to register under [SORNA]" and resides in Indian country to "knowingly" fail to
register as a sex offender or update certain information. 18 U.S.C. § 2250. Burgee argues that the
indictment should be dismissed because his state conviction does not trigger SORNA's registration

requirement. This argument turns in large part on SORNA's definition of a "sex offense."
SORNA requires Burgee to register only if he is a "sex offender." 34 U.S.C. § 20913(a).
A "sex offender," in turn, is defined as "an individual who was convicted of a sex offense." Iff
§ 20911(1). The issue here, then, is whether Burgee's state court conviction qualifies as a sex
offense" under SORNA. SORNA defines "sex offense" broadly. Section 20911(5), which is
entitled "Amie Zyla expansion ofsex offense definition," states that the term "sex offense means,

among other things, "(ii) a criminal offense that is a specified offense against a minor." Iff
§ 20911(5)(A)(ii). SORNA further defines the phrase "specified offense against a minor in
§ 20911(7), which is aptly entitled "Expansion of definition of'specified offense against a minor
to include all offenses by child predators." Iff § 20911(7). Section 20911(7)states:

The term "specified offense against a minor" means an offense against a
minor that involves any ofthe following:

(A) An offense (unless committed by a parent or guardian) involving
kidnapping.

^•

i •

(B) An offense (unless committed by a parent or guardian) mvoivmg
false imprisonment.

(C) Solicitation to engage in sexual conduct.
(D) Use in a sexual performance.

(E) Solicitation to practice prostitution.

(F) Video voyeurism as described in section 1801 of Title 18.
(G) Possession, production, or distribution of child pornography.
(13a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 5 of 15 PageID #: 192

(H) Criminal sexual conduct involving a minor, or the use of the
Internet to facilitate or attempt such conduct.

(I) Any conduct that by its nature is a sex offense against a minor.

Id. Burgee argues that subsection (I) is the only potentially applicable definition while the
government contends that Burgee's prior conviction falls within subsection(H)and (1). Because
Burgee's motion can be resolved under § 20911(7)(I), this Court focuses on the definition in that
subsection.

The parties disagree over how to decide whether Burgee's state conviction involved
"conduct that by its nature is a sex offense against a minor." Burgee advocates for the "categorical

approach," under which courts consider the statutory definition of the crime of conviction but

ignore the underlying facts.^ See United States v. Hill. 820 F.3d 1003, 1005 (8th Cir. 2016). The
government, on the other hand, argues that this Court must apply a "circumstance-specific

approach." Under that approach, courts may "examine the 'particular circumstances in which an
offender committed the crime on a particular occasion.'" Id (quoting Moncrieffe v. Holder, 569
U.S. 184, 202(2013)).

The Eighth Circuit in Hill held that the cireumstanee-specific approach govems whether a

prior offense constitutes "conduct that by its nature is a sex offense against a minor." Id Looking
to the text of § 20911(7)(I), the Eighth Circuit concluded that this subsection "manifestly invites
an examination of the specific conduct in which the defendant engaged." Hill, 820 F.3d at 1005.

This conclusion was supported, the Eighth Circuit reasoned, by SORNA's purpose. Id After all.

^This Court uses "categorical approach" here to refer to both the categorical and modified
categorical approach. After all, the modified approach "merely helps implement the categorical

approach when a defendant was convicted of violating a divisible statute." Descamps v. United
States. 570 U.S. 254, 263 (2013). The modified categorical approach allows courts to consult a
limited universe of documents to determine which of the predicate offense's alternative elements
formed the basis ofthe defendant's conviction. Id at 261-63.

(14a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 6 of 15 PageID #: 193

Congress passed SORNA to protect children from sex offenders, and it used broad terms to
encompass"as many offenses against children as possible." Id. at 1005-06(quoting United States
V. Dodge. 597 F.3d 1347, 1355 (11th Cir. 2010)(en banc)). SORNA's "intended breadth," the
Eighth Circuit explained, was illustrated by the headings for the subsection defining a "sex
offense"—"Amie Zyla expansion ofsex offense definition"—and the subsection defining the term

"specified offense against a minor"— "Expansion of definition of 'specified offense against a
minor' to include all offenses by child predators." Ifr at 1006.

Other circuits have also concluded that §20911(7)(1) calls for a circumstance-specific

approach. United States v. Price. 777 F.3d 700, 708-09 (4th Cir. 2015) (holding that the
circumstance-specific approach applies to § 20911(7)(1)); Dodge, 597 F.3d at 1353-56 (same);
United States v. Mi Kvung Bvim. 539 F.3d 982, 991-92 (9th Cir. 2008)(concluding that the

noncategorical approach applies to determine the age of the victim under § 20911(7)(1)). The
Eighth Circuit in HiU cited Price. Dodge, and Bvun with approval when deciding that the
circumstance-specific approach governs whether a prior offense involved "conduct that by its
nature is a sex offense against a minor." Hill. 820 F.3d at 1005.

Burgee acknowledges that the Eighth Circuit has applied the circumstance-specific
approach, but argues that the Supreme Court's recent decision in Sessions v. Dimaya. 138 S. Ct.
1204 (2018), "casts doubt" on Hill. Decisions by the Eighth Circuit, however, are binding on
district courts within its territory "until overruled by[the] court en banc,by the Supreme Court, or

by Congress." M.M. ex rel. L.R. v. Special Sch. Dist. No. 1. 512 F.3d 455,459 (8th Cir. 2008);
see also Eulitt ex rel. Eulitt v. Maine. Den't of Educ.. 386 F.3d 344, 349 (1st Cir. 2004)("Until a

court ofappeals revokes a binding precedent, a district court within the circuit is hard put to ignore

that precedent unless it has unmistakably been cast into disrepute by supervening authority.");

6

(15a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 7 of 15 PageID #: 194

Hood V. United States. 342 F.3d 861, 864 (8th Cir. 2003)(explaining that the district court was

bound to apply Eighth Circuit precedent). The case on which Burgee relies, Dimaya, did not
concern SORNA, but rather involved the definition of a "crime of violence" in 18 U.S.C. § 16.

That provision states in relevant part that a "crime of violence" means:"(b) any other offense that
is a felony and that, by its nature, involves a substantial risk that physical force against the person

or property of another may be used in the course of committing the offense." 18 U.S.C. § 16(b).
In nimava, a plurality of the Supreme Court cited to the phrase "by its nature" in § 16(b) when
concluding that this subsection requires a categorical approach. Dimava. 138 S. Ct. at 1217. The
Court stated:

Our decisions have consistently understood language in the residual
clauses of both [the Armed Career Criminal Act] and § 16 to refer
to "the statute of conviction, not to the facts of each defendant's

conduct." Simple references to a "conviction," "felony," or
"offense," we have stated, are "read naturally" to denote the "crime
as generally committed." And the words "by its nature" in § 16(b)
make that meaning all the clearer. The statute, recall, directs courts
to consider whether an offense, by its nature, poses the requisite risk
offorce. An offense's "nature" means its "normal and characteristic

quality." So § 16(b) tells courts to figure out what an offense
normally—or, as we have repeatedly said,"ordinarily"—entails,not
what happened to occur on one occasion.

nimava- 138 S. Ct. at 1217-18 (plurality opinion)(internal citations omitted). This discussion in

Dimava cannot be read as overruling Hill. Indeed, the text of § 16(b) is different from the text of

§ 20911(7)(I); § 16(b)focuses on the nature ofthe "offense" whereas § 20911(7)(I)focuses on the
nature of the "conduct." It was § 20911(7)(I)'s reference to the "conduct" underlying a prior

conviction, along with SORNA's purpose and the titles ofthe relevant subsections, that drove the
Eighth Circuit's decision in HiU. Dimava does not undermine this rationale to such a degree that
this Court can ignore Hill's holding.

(16a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 8 of 15 PageID #: 195

Burgee also argues that this Court must apply the categorical approach to avoid violating
his Sixth Amendment rights. The government did not respond to this argument. The Fifth and
Sixth Amendments guarantee Burgee's right to have ajury decide every element ofthe crime with
which he is charged. United States v. Gaudin. 515 U.S. 506, 509-11 (1995). An "element" for

Sixth Amendment purposes includes any fact, other than a prior conviction, that increases the
statutory maximum or minimum sentence. Allevne v. United States, 570 U.S. 99, 103, 111 n.l

(2013). The Sixth Amendment's requirement that every element of a crime be submitted to ajury
is one reason the Supreme Court has used the categorical approach in the sentencing context.
Descamps v. United States. 570 U.S. 254,267,269(2013). The Supreme Court, for instance, has

applied the categorical approach to a statute that imposes a mandatory penalty ifa sentencingjudge
finds that the defendant has three prior convictions for a "violent felony." See 18 U.S.C. § 924(e);
Descamps. 570 U.S. at 257. The categorical approach limits the judge's inquiry to the elements

of the prior convictions rather than the circumstances underlying them, and thus protects a
defendant's right to have a jury decide every fact or "element" that could increase his sentence.
Dpsnamps. 570 U.S. at 267, 269. As the Supreme Court recognized in Descamps, however, any

judicial fact-finding that goes beyond simply identifying a prior conviction through the categorical
or modified eategorical approach "would (at the least) raise serious Sixth Amendment eoncems."
Id at 269. These concerns, the Supreme Court explained, militate against "allowing a sentencing

court to make a disputed determination about what the defendant and state judge must have
understood as the factual basis of the prior plea." Id (cleaned up)(quoting Shepard v. United
States. 544 U.S. 13, 25 (2005) (plurality opinion)). Burgee argues that these same Sixth

Amendment eoncems require this Court to apply the eategorical approach to determine whether
his prior conviction involved "conduct that by its nature is a sex offense against a minor."

(17a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 9 of 15 PageID #: 196

The Fourth Circuit rejected this argument in Price. It reasoned that the cireumstance-

specifie approach did not raise any Sixth Amendment concerns because the defendant was still
"entitled to go to trial and have a jury determine beyond a reasonable doubt whether his [prior]
conviction was for a sex offense under SORNA."'^ Price. 777 F.3d at 710. Had the defendant gone

to trial, the Fourth Circuit reasoned, the jury would have considered the facts underlying the
defendant's prior conviction "and then decided whether that evidence satisfied SORNA's
definition of a 'sex offense.'" Id The Fourth Circuit's holding finds support in the Supreme

Court's approach to statutes that require more than a simple review of the elements of a prior
offense. See Niihawan v. Holder. 557 U.S. 29,40(2009)(dismissing Sixth Amendment concems

over a cireumstanee-specifie approach to determining loss under a deportation statute because a

jury would need to determine loss in a subsequent prosecution for illegal reentry); United States
V. Haves. 555 U.S. 415,426(2009)(holding that a predicate offense under 18 U.S.C. § 922(g)(9)
did not need to have a domestic relationship as an element but noting that the government would

need to "prove beyond a reasonable doubt"that the victim ofthe predicate offense had the specified
domestic relationship to the defendant).

According to Burgee, however, the issue of whether a prior conviction is a "sex offense"

is a question of law, at least in the Eighth Circuit. He cites Hill, the Eighth Circuit model jiiry
instruction for § 2250, and this Court's decision in United States v. Marrowbone. 102 F. Supp. 3d

1101 (D.S.D. 2015), in support. These sources do not establish that a court must decide whether
a prior conviction involved any conduct that by its nature is a sex offense against a minor.
First, the main issue in Hill was whether the categorical or the cireumstanee-specifie

approach applied to § 20911(7)(1). See Hill. 820 F.3d at 1005. Although the Eighth Circuit went

'^The defendant in Price waived that right by pleading guilty. Price. 777 F.3d at 710.
9

(18a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 10 of 15 PageID #: 197

on to consider the cireumstances underlying the defendant's prior conviction, nothing indicates

that the defendant disputed that his aetual conduct(as opposed to the limited documents he argued
the court could consider) established that he committed a sex offense.

Appellant's Br., 2015

WL 7076740; Appellant's Reply Dr., 2015 WL 8732056. More importantly, the defendant in Hill
had pleaded guilty,^ thereby waiving his Sixth Amendment right to have a jury determine every
element ofthe crime. See Price. 777 F.3d at 710(explaining that the defendant,by pleading guilty,

had forfeited his right to have ajury decide whether his prior conviction qualified as a sex offense

under § 20911(7)(I)). Indeed, the plea agreement in Hill stated that the defendant understood that
he was waiving the right "to have a speedy and public trial by jury." United States v. Hill, 5:15er-50014-TLB, Doc. 19 at 4. Thus,there was no concern that the Eighth Circuit would violate the
defendant's Sixth Amendment right by considering the circumstances underlying his prior
conviction. See United States v. Moreno-Morillo. 334 F.3d 819, 826 (9th Cir. 2003)(explaining

that a defendant caimot waive his right to ajury trial and then complain on appeal that his right to
such a trial was violated).

Second, the Eighth Circuit model instruction on § 2250 does not require this Court to

decide whether Burgee's prior conviction was a sex offense. True, the "Notes on Use" to this
instruction state that "[wjhether a specific prior offense qualifies as a 'sex offense' under SORNA

is a legal question for the district court." Eighth Circuit Manual of Model Jury Instructions
6.18.2250. But the only support the model instruction cites for this proposition is United States v.

■Jenkins. 792 F.3d 931 (8th Cir. 2015), a case considering 18 U.S.C. § 922(g). See Jenkins, 792

F.3d at 935 ("Whether a particular conviction qualifies as a predicate felony for the purpose of

^The defendant in Hill entered a conditional plea, reserving the right to appeal the district court's
denial of his motion to dismiss the indictment. 820 F.3d at 1004.
10

(19a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 11 of 15 PageID #: 198

§ 922(g)is a question oflaw for the district court."(citation omitted)). Section 922(g)and SORNA
are not comparable, and the statement in Jenkins therefore has little relevance to whether
§ 20911(7)(I) presents a question oflaw or a question for the jury. In any event,the Eighth Circuit
model instructions, while often helpful, are not binding on district courts. United States v.
Snarkman. 500 F.3d 678,684(8th Cir. 2007).

Third, this Court's decision in Marrowbone can be distinguished. In an opinion issued in
the Marrowbone case, this Court stated that it was a legal issue whether assault with intent to

commit rape qualified as a sex offense under SORNA. United States v. Marrowbone, No. 3:14CR-30071-RAL, 2014 WL 6694781, at *2 (D.S.D. Nov. 26, 2014). The issue in Marrowbone.

however, was whether the prior conviction, which this Court determined was essentially for
attempted rape, met the definition of a sex offense in § 2091 l(5)(A)(v). Marrowbone, 2014 WL
6694781, at *3. This Court concluded that the relevant definitions of a sex offense required a

categorical approach and did not consider the facts underlying the defendant's prior conviction.
Id at *3-4; see also United States v. Berrv. 814 F.3d 192, 199 (4th Cir. 2016)(recognizing that
some definitions of a "sex offense" under SORNA call for the circumstance-specific approach

while others require a categorical approach). This Court never analyzed § 20911(7)(1) and the
defendant never argued that a jury should decide whether he had been convicted of a sex offense.
Marrowbone thus does not support Burgee's argument that whether his prior conviction meets
§ 20911(7)(1) presents a legal question.

To summarize, the circumstance-specific approach governs whether Burgee's prior

conviction involved "any conduct that by its nature is a sex offense against a minor." Applying
the circumstance-specific approach does not violate Burgee's Sixth Amendment rights because a

jury will ultimately have to determine beyond a reasonable doubt whether the prior conviction falls

11

(20a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 12 of 15 PageID #: 199

within § 20911(7)(I). Price. 777 F.3d at 710. This Court therefore denies Burgee's motion to
dismiss to the extent Burgee asks this Court to apply the categorieal approaeh and eonelude that
his prior conviction does not qualify as a "sex offense" under SORNA.
B. Vagueness Challenge to § 20911(7)(I)

Burgee also argues that § 20911(7)(I) is impermissihly vague. "A statute is void for
vagueness if it: (1) fails to provide a person of ordinary intelligenee fair notiee of what is
prohibited, or (2) it is so standardless that it authorizes or eneourages seriously diseriminatory
enforcement." United States v. Paul. 885 F.3d 1099, 1105 (8th Cir.) (eitation omitted), eert.

denied, 139 S. Ct. 290(2018). Although Burgee makes both an as-applied and a faeial attaek on

§ 20911(7)(I), he aeknowledges that he must show that the statute is vague "as applied to his

particular conduct" to succeed. United States v. Bramer. 832 F.3d 908, 909 (8th Cir. 2016)(per
euriam); see also United States v. Frison. 825 F.3d 437,442(8th Cir. 2016)("We eonsider whether
a statute is vague as applied to the particular facts at issue, for a plaintiff who engages in some

eonduct that is clearly proseribed eaimot eomplain of the vagueness of the law as applied to the
eonduet of others."(eleaned up)(citation omitted)).

Under an as-applied ehallenge, eourts look "to whether the statute gave adequate warning,

under a specific set of faets, that the defendant's behavior was a criminal offense." United States
V Palmer. No. 18-1365, No. 18-1367, 2019 WL 1053097, at *3 (8th Cir. Mar. 6, 2019)(citation

omitted). Burgee argues that the phrase"eonduet that by its nature is a sex offense against a minor"
is ambiguous and that it is "unelear what eonduct would qualify" under § 20911(7)(I). He eontends
that the "evidence" is not"suffieient that[his] conviction brings him within the scope ofSORNA's

12

(21a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 13 of 15 PageID #: 200

residual clause or that he would know that it did." The government disagrees, arguing that

Burgee's prior registration forms show that he knew he had to register under SORNA.^
Any ruling on Burgee's vagueness argument would be premature at this stage ofthe case.

Burgee moved to dismiss the indictment under Rule 12(b) of the Federal Rules of Criminal
Procedure, which allows parties to "raise by pretrial motion any defense, objection, or request that
the court can determine without a trial on the merits." Fed. R. Grim. P. 12(b)(1). Courts must

decide a Rule 12(b)motion before trial unless there is "good cause to defer a ruling" and deferring
the ruling will not "adversely affect a party's right to appeal." Fed. R. Crim. P. 12(d). As the

Supreme Court has explained, however. Rule 12(b) authorizes pretrial resolution of a motion to
dismiss only when "trial of the facts surrounding the commission ofthe alleged offense would be
of no assistance in determining the validity ofthe defense." United States v. Covington. 395 U.S.
57,60(1969); see also United States v. Turner. 842 F.3d 602,605(8th Cir. 2016).
The rationale for this Rule includes preventing courts from making factual findings on

issues that relate to the jury's decision on the merits, the need for a more accurate record, and
concerns about judicial economy. See United States v. Pope. 613 F.3d 1255, 1259 (10th Cir.

2010). Thus, for instance, the Eighth Circuit found good cause to defer ruling on the motion to
dismiss in Turner because the defendant's as-applied constitutional challenge required the district
court to resolve factual issues related to the defendant's alleged offense. 842 F.3d at 605(holding
that the district court should have waited imtil trial to resolve the motion to dismiss the indictment).

Similarly, the Tenth Circuit in Pope affirmed the pretrial denial ofa motion to dismiss because the
defendant's as-applied constitutional challenge was intertwined with the question of guilt or

®The only court of appeals to consider the issue held that § 20911(7)(I)is not vague. United States
V. Schofield. 802 F.3d 722, 730-31 (5th Cir. 2015)(per curiam).
13

(22a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 14 of 15 PageID #: 201

innocence and would have required the district court to resolve factual disputes. 613 F.3d at 126162.

Turner and Pope counsel against deciding Burgee's vagueness challenge before trial. First,

Burgee's motion raises questions offact that are intertwined with the merits ofthe § 2250 charge.
See Turner. 842 F.3d at 605(explaining that courts may not make factual findings "when an issue

is inevitably bound up with evidence about the alleged offense itself (citation and internal marks
omitted)). The government must show that Burgee has been convicted of a "sex offense" to meet
the first element of§ 2250. See 18 U.S.C. § 2250(a); 34 U.S.C. §§ 20911(1), 20913(a).

As explained already, deciding whether Burgee has been convicted of a sex offense will

require the jury to consider the facts underlying Burgee's prior conviction and then determine
whether it involved "[a]ny conduct that by its nature is a sex offense against a minor."

§ 20911(7)(I). Burgee's as-applied challenge asks this Court to consider these same issues. After
all, he argues that the "evidence" surrounding his prior conviction falls short of establishing that
the conviction comes within § 20911(7)(I) or that he should have known it did. And an as-applied

challenge like Burgee's asks "whether the statute gave adequate warning, under a specific set of

facts, that the defendant's behavior was a criminal offense." Palmer. 2019 WL 1053097, at *3
(emphasis added). To rule on Burgee's motion, then, this Court would need to resolve facts that
are bound up with the jury's decision on the § 2250 charge, namely what conduct Burgee actually
engaged in with the victim of his prior conviction. In addition, this Court needs a "more certain
framework" to analyze Burgee's vagueness argument. Pope. 613 F.3d at 1259 (citation omitted).
The indictment does not contain any facts about Burgee's prior eonviction and the parties have not

stipulated to any sueh facts. Instead, the government has submitted documents concerning the
prior conviction, some of which raise obvious hearsay concerns. Under these circumstances, a

14

(23a)

Case 3:18-cr-30164-RAL Document 32 Filed 03/25/19 Page 15 of 15 PageID #: 202

trial on the "facts surrounding the commission of the alleged offense" would assist this Court in
ruling on Burgee's challenge. Because good cause exists to defer ruling on Burgee's vagueness

argument, this Court denies Burgee's motion to dismiss without prejudice to Burgee renewing the
motion or making the argument in the context of a Federal Rule of Criminal Procedure Rule 29

motion once the government has introduced the relevant evidence at trial.^
III.

Conclusion

For the reasons stated above, it is hereby

ORDERED that Burgee's Motion to Dismiss Indictment, Doc. 26, is denied. This denial

is without prejudice to Burgee renewing his as-applied vagueness challenge to § 20911(7)(I).

DATED this

day of March,2019.
BY THE COURT:

ROBERTO A. LANGE

UNITED STATES DISTRICT JUDGE

''This Court recognizes that Rule 12(d) permits courts to "defer" ruling on a motion to dismiss
when good cause exists. As another district court explained, however, it is preferable to deny such
a motion without prejudice,"since a motion to dismiss that depends upon the resolution offacts at
trial is a contradiction in terms." United States v. Poulin, 588 F. Supp. 2d 58, 61 n.2 (D. Me.

2008); see also Pone. 613 F.3d at 1257 (affirming denial of pretrial motion to dismiss where
resolution of the motion before trial was not appropriate).
15

(24a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 1 of 19 PageID #: 238

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
CENTRAL DIVISION

3:18-CR-3qi64-RAL

UNITED STATES OF AMERICA,

Plaintiff,
FINDINGS OF FACT AND
CONCLUSIONS OF LAW

vs.

KT BURGEE,

a/k/a Kape Teal Burgee,
Defendant.

On June 18, 2019, this Court conducted a court trial in this case by consent of the
Defendant,defense counsel,and Assistant United States Attorney. Defendant KT Burgee(Burgee)

faced a single charge in the indictment under the Sex Offender Registration and Notification Act

(SORNA), which requires people who have been convicted of certain "sex offenses" to
periodically register in the jurisdiction where they reside. Doc. 1; 34 U.S.C. §§ 20911(1), 2091320914. Burgee previously had moved to dismiss the indictment, arguing that his prior state

conviction does not qualify as a "sex offense" under SORNA and that the relevant definition of a
"sex offense" is void for vagueness. Doe. 26. This Court denied Burgee's motion because under

Eighth Circuit precedent, a finder of fact must determine whether his prior conviction is a "sex
offense."

1.

Findings of Fact

1. Burgee,in 2014,was charged in Hughes County, Sixth Judicial Circuit ofSouth Dakota
with sexual exploitation of a minor under South Dakota Codified Law (SDCL)§ 2222-24.3. Tr. Ex. 1.

1

(25a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 2 of 19 PageID #: 239

2. That statute reads in relevant part;

A person is guilty of sexual exploitation of a minor if the person
causes or knowingly permits a minor to engage in an activity or the
simulation of an activity that:
(1) Is harmful to minors;
(2) Involves nudity; or
(3) Is obscene.

Consent to performing these proscribed acts by a minor or a minor's
parent, guardian, or custodian, or mistake as to the minor's age is
not a defense to a charge of violating this section.
SDCL§ 22-22-24.3.

3. The State information charging Burgee cited to SDCL § 22-22-24.3(2) but seemed to

concern § 22-22-24.3(1), alleging that Burgee "did cause or knowingly permit a minor
to engage in an activity or the simulation of an activity that is harmful to minors." Tr.
Ex. 1.

4. Burgee pleaded guilty to the offense on June 17,2014. Tr. Ex. 3. He had the following
exchange with the state judge about the factual basis for his plea:
THE COURT: Mr. Burgee, back on March 17th, did you have
contact with an individual who was under the age of 16?
[BURGEE]: Yes, Your honor.
THE COURT: And was that contact without the permission of that
individual?

([Burgee] conferred with covmsel.)
[BURGEE]:-No,Your Honor.
THE COURT: It was not without the consent ofthe individual?
[BURGEE]: Yes.

THE COURT: But you knew this individual was not of age; is that
correct?

[BURGEE]: At the time 1 didn't.

THE COURT: Ms. Kloeppner.^
MS.KLOEPPNER:1 can fill in some blanks. Your Honor.
THE COURT: Please.

MS. KLOEPPNER: The Information in this case alleges that he

permitted a minor to engage in an activity or the simulation of an
activity that is harmful to minors. In this case Mr. Burgee had
^Ms. Kloeppner was the prosecutor in state court.
2

(26a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 3 of 19 PageID #: 240

contact with a minor. The evidence in this case, the forensic
evidence showed that his DNA was found on her neck and his DNA

was found in her underwear. I think that would provide the faetual
basis.

THE COURT: Do you deny that?
[BURGEE]: No, your honor.
Tr. Ex. 3.

5. In August 2014, the state judge gave Burgee a suspended sentence of two years'
imprisonment and ordered that he register as a sex offender "pursuant to South Dakota
law." Tr. Ex. 4.

6. In 2016, Burgee was on federal supervised release after a federal larceny conviction.

Burgee failed to meet with his supervisory probation officer and left where he was

supposed to reside,so this Court issued a warrant for the violation offederal supervised
release. Deputy U.S. Marshal Trevor Lumadue investigated Burgee's whereabouts

upon receipt of the warrant for the supervised release violation and concluded that
Burgee did not reside where he was registered between September 14, 2016, and his
arrest on the federal warrant on October 15, 2018. Burgee then was indicted in this
case for failure to register as a sex offender.

7. Because Burgee challenges whether the state conviction for sexual exploitation of a
minor was a "sex offense" imder SORNA,this Court, consistent with precedent from

the Eighth Circuit under United States v. Hill. 820 F.3d 1003, 1005 (8th Cir. 2016),
eonsidered the reliable evidence of the circumstances underlying Burgee's state court

conviction. In doing so, the Court heard testimony at trial from Jennifer Gray, the

Capital Area Counseling forensic examiner who conducted the forensic examination of
S.S., the fourteen-year-old victim ofBurgee's state court sexual exploitation ofa minor

eonviction; nurse practitioner Angela Lisburg, who conducted the forensic medical
(27a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 4 of 19 PageID #: 241

examination and follow-up examination of S.S.; Derald Gross,the eaptain ofpolice for
the Pierre Police Department who handled the sexual assault kit; and Kristina
Dreckman, a forensic scientist at the South Dakota Forensic Laboratory who conducted
serology and DNA testing on portions ofthe rape kit.

8. The parties at trial before this Court agreed that the forensic interview of S.S. could be
received in evidence in lieu of S.S.'s testimony and without any objection to hearsay
or foundation.

9. S.S., in her forensic interview by forensic examiner Gray, disclosed that Burgee had

raped her by inserting his penis into her vagina without her consent and against her will '
at a time when she was fourteen years of age. Tr. Ex. 2.

10. S.S., in her forensic interview described that her mother had a drinking party at her
home on the evening of Saint Patrick's Day,March 17,2014. Burgee was among those
who attended the drinking party and was consuming alcohol. Tr. Ex. 2.

11. S.S., who was not part ofthe drinking, went into her mother's room with her little sister
who then was in the fifth grade, so they could watch television before going to sleep.
Both S.S. and her little sister fell asleep with the television offin their mother's room.
Tr. Ex. 2.

12. Sometime in the night, S.S. awoke to the feeling ofsomeone beside her and then on top
of her, kissing her face and neck. S.S. described that her pants had been taken off of
her, that her underwear was pushed down to her ankles, that her sweater was off, and
that she felt pressure from the man on top of her. Tr. Ex. 2.

(28a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 5 of 19 PageID #: 242

13. S.S. tried to pull her underwear up and push the man off of her, but the man responded
"I'm KT; trust me." The man kept saying "trust me, trust me" as S.S. tried to get him
off of her. Tr. Ex. 2.

14. S.S. described that the man kissed her on the neck. Tr. Ex. 2.

15. S.S. felt the man's penis in her vagina and described to the forensic examiner that it
hurt really bad. Tr. Ex. 2.

16. S.S. recognized the man who was raping her as "KT" and believed "KT" to be drunk
based on the smell of his breath and the manner in which he was acting. Tr. Ex. 2.

17. The"KT" who was in the house and room that night was defendant KT Burgee.
18. S.S.'s little sister awoke during the sexual assault and ran out of the room. S.S.

ultimately got free and went into her own room, where her little sister was located. Tr.
Ex. 2.

19. Burgee tried to follow S.S. into her room, got into her room, and then was following
her around, to the point where S.S.'s mother's boyfriend began to argue with Burgee
and eventually kicked him out. Tr. Ex. 2.

20. S.S. had never met Burgee before and did not know him previously. This was the first
occasion where Burgee had been in the home of S.S. to her knowledge. Tr. Ex. 2.
21. S.S. went to the bathroom after the assault and felt some fluid come out of her vagina.
S.S. was not sure whether Burgee had ejaculated. Tr. Ex. 2.

22. S.S. went to school the next day and spoke with a fiiend. S.S. the next evening tried to

tell her mother what had happened, but her mother was drunk. S.S. later told her older
sister, who in turn told her mother, resulting in S.S. being taken to Avera St. Mary's
Hospital in Pierre, South Dakota. Tr. Ex. 2.

(29a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 6 of 19 PageID #: 243

23. On March 18,2014, S.S. presented to Avera St. Mary's Hospital where Angela Lisburg
performed a sexual assault examination and collected a kit that then was provided to
Captain Gross of the Pierre Police Department. Lisburg, a nurse practitioner who has
sexual abuse training and works at the Central South Dakota Child Advocacy Center,

did a head-to-toe physical and genital examination. The genital examination revealed
redness and bruising to the opening of S.S.'s vagina.

24. As a part ofthe physical examination,Lisburg collected S.S.'s underwear,among other
things, and swabbed her neck, chest, vagina, and anus, as well as taking a buccal swab
ofS.S.

25. Because Lisburg did not know whether the redness and bruising at the opening ofS.S.'s

vagina was a consequence of the sexual assault or something unique to S.S., Lisburg
did a follow-up examination on April 3, 2014, at which time there was no redness or
bruising. The existence of redness and bruising on March 18 and not on April 3,

suggested to Lisburg that redness and bruising of S.S.'s vagina resulted from the sexual
assault reported by S.S.

26. When interviewed on March 19, 2014, by Pierre Police Captain Derald Gross, Burgee

admitted being at a party on March 17, 2014, at the residence. Burgee said that he
drank two cases of beer and blanked out. Burgee was 20 years old at the time. Burgee

allowed Captain Gross to take a buccal swab from him.

27. The State of South Dakota Forensic Laboratory received the sexual assault kit,^ and
forensic scientist Kristina Dreckman did serology and DNA testing on material in the

■ After Burgee's guilty plea and sentence, evidence from the state case was destroyed. Tr. Ex. E.
6

(30a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 7 of 19 PageID #: 244

kit in May of2014. Dreckman had received, through Captain Gross, a buccal swab of
Burgee, together with the rape kit as eollected by Lisburg.

28. Dreckman performed serology testing, which found semen on the vaginal swab taken
from S.S. and on S.S.'s underwear. There was saliva found on both S.S.'s underwear
and her neck.

29. Dreckman performed short tandem repeat testing to determine whose DNA was on
certain swabs. The vaginal swab matched S.S., but Dreckman could not detect male

DNA on the vaginal swab. Dreckman described that the cutting from the vaginal swab
used for DNA testing may not have had semen on it, while the cutting of the vaginal
swab used for serology could have.

30. Dreckman found sperm cells in S.S.'s underwear, which matched Burgee's DNA,in

that only one in 70 million would be expected to have the same DNA profile as found
in the sperm cells in S.S.'s underwear and in that Burgee had that same DNA profile.
31. Burgee pleaded guilty to a state court information on June 17, 2014, for sexual
exploitation of a minor. Tr. Ex. 3. Burgee's plea was intended to be an Alford plea
based on a plea agreement described on the reeord ofthe transcript. Reliable evidence
exists that Burgee's sexual exploitation of a minor eonviction regarding his behavior
towards S.S. was m fact "conduct that by its nature is a sex offense against a minor."

Burgee reeeived a suspended sentence that included a duty to register under state law
as a sex offender. Tr. Ex. 4.

32. Following Burgee's sentencing in state court. Burgee exeeuted with a state probation
officer a form by which he certified "my duty to register as a sex offender has been
explahied to me." Tr. Ex. 5.

(31a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 8 of 19 PageID #: 245

33. Burgee then registered as a sex offender under South Dakota law in 2014 and 2015.
Tr. Exs. 7, 8, 9, 10, 11, 12, 13. On each of those forms Burgee certified: "I
UNDERSTAND THAT I AM REQUIRED TO REGISTER BI-ANNUALLY WITH
THE APPROPRIATE LAW ENFORCEMENT AGENCY WITHIN THE STATE OF

SOUTH DAKOTA PER SDCL 22-24B-7." Tr. Exs. 7, 8, 9, 10, 11,12, 13.

34. Each form also contained a certification that Burgee understood that he had to notify

law enforcement agencies within three days of any relocation, including moving out of
state. Tr. Exs. 7, 8, 9, 10, 11,12, 13.

35. Burgee was indicted in state court for failure to provide new address for sex offender
registry and was convicted ofthat offense in 2015. Tr. Exs. 14, 15.

36. In 2015,while in state custody. Burgee executed sex offender registration forms similar
to the ones that he had signed earlier, verifying his obligation to register as a sex
offender. Tr. Exs. 17, 18.

37. Burgee was released from state custody on or about July 28, 2016, and executed the

parole supervision agreement, with commitments not to leave the state, to keep his
probation officer apprised of his whereabouts, and not to change residence or
employment without notifying the state probation officer. Tr. Ex. 18.

38. Burgee also signed a document again certifying that he had a duty to register as a sex
offender, which had been explained to him. Tr. Ex. 19.

39. Burgee registered as a sex offender on August 5,2016,listing his residence as the Rapid
City Community Work Center. Tr. Ex. 20.

40. Burgee completed no sex offender registration forms while out of custody afl;er August
5,2016.

8

(32a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 9 of 19 PageID #: 246

41. Burgee not only was on state probation, but also on federal supervision in the District
ofSouth Dakota for a prior larceny conviction. Burgee's federal supervising probation
officer met with Burgee on September 13,2016, at the Community Transitions program

building in Rapid City where the Community Work Center was located. The

supervisory probation officer was scheduled to meet with Bmgee a week later, but was
notified on September 14 that Burgee had absconded from the Community Work
Center.

42. While at the Community Work Center, Burgee had been working at D&D Truck Wash.
Burgee's last date of work at the truck wash was September 10, 2016. He was
scheduled to work the next week, but did not show up.

43. Burgee was released from the Community Work Center in Rapid City to go to work on
September 14, 2016. He was not back at the Community Work Center that evening
and thus was listed as missing on the evening of September 14, 2016. Tr. Exs. 31, 32.

Burgee never did return to the Community Transitions Program or Community Work
Center in Rapid City after he absconded on September 14, 2016.

44. After receiving the federal warrant to arrest Burgee on a Petition to Revoke Supervised
Release,Deputy U.S. Marshal Lumadue accessed Burgee's Facebook account and saw

a series ofphotographs indicating that Burgee was outside ofthe state ofSouth Dakota,
based on the appearance of coasts, beaches, and other topographical features that do
not exist in the state of South Dakota. Tr. Exs. 22-29.

45. Burgee was arrested on October 15, 2018, in Pierre, South Dakota, at his mother's
home. Burgee had been a fugitive since the issuance ofthe arrest warrant on September

(33a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 10 of 19 PageID #: 247

14, 2016, and had not reregistered any new address between his last registration on
August 5, 2016, and the time of his arrest on October 15, 2018.

46. Burgee was interviewed by Deputy U.S. Marshal Lumadue at the Hughes County Jail.
Burgee was read his Miranda rights and waived those rights. During the interview.
Burgee said that he had not registered as a sex offender because he did not feel that he
was a sex offender, stating that the DNA came back as not his and that he got set up.
Burgee conceded that his last registration was while he was in Rapid City in 2016, and
that he had not registered as a sex offender for a couple of years. Burgee explained that
he had been traveling everywhere, writing and performing music, and having fun.

Burgee mentioned being in North Dakota and in New Mexico and traveling throughout
the United States. Burgee was vague and reluctant to disclose where particularly he
had been and with whom he spent time. During the interview. Burgee, notwithstanding
the evidence received at trial, denied ever signing anything acknowledging his
responsibility to register as a sex offender.
47. The evidence establishes that Burgee knew of his responsibility to register as a sex
offender, at least mder South Dakota law.

48. The evidence establishes that Burgee traveled to other states during the time when he

was out of compliance with his duty to register as a sex offender under South Dakota
law.

49. If any of the Conclusions of Law contained below should have been characterized as
Findings of Fact, they are incorporated as findings herein.
II.

Conclusions of Law

10

(34a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 11 of 19 PageID #: 248

1. Congress enacted SORNA to protect the public from child predators and sexually
violent crmunals by ensuring that these individuals register as sex offenders. 34 U.S.C.
§ 20901; Revnolds v. United States. 565 U.S. 432, 435 (2012).

2. To this end, § 2250 makes it a crime for a person who "is required to register under
[SORNA]" and who travels in interstate commerce to "knowingly" fail to register as a
sex offender or update certain information. 18 U.S.C. § 2250.

3. Burgee argues that the indictment should be dismissed because his state conviction
does not trigger SORNA's registration requirement. This argument turns in large part
on SORNA's definition of a "sex offense."

4. SORNA requires Burgee to register only if he is a "sex offender." 34 U.S.C.
§ 20913(a). A "sex offender," in tum, is defined as "an individual who was convicted
ofa sex offense." Id § 20911(1). The issue here, then, is whether Burgee's state court

conviction qualifies as a "sex offense" under SORNA.
5. SORNA defines "sex offense" broadly. Section 20911(5), which is entitled "Amie

Zyla expansion of sex offense definition," states that the term "sex offense" means,
among other things,"(ii) a criminal offense thatis a specified offense against a minor."
Id §20911(5)(A)(ii).

6. SORNA further defines the phrase "specified offense against a minor" in § 20911(7),
which is aptly entitled "Expansion of definition of'specified offense against a minor'
to include all offenses by child predators." Id § 20911(7). Section 20911(7) states:

The term "specified offense against a minor" means an offense
against a minor that involves any ofthe following:

(A) An offense (unless committed by a parent or guardian) involving
kidnapping.

11

(35a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 12 of 19 PageID #: 249

(B) An offense (unless eommitted by a parent or guardian) involving
false imprisonment.
(C) Solieitation to engage in sexual conduct.
(D) Use in a sexual performance.
(E) Solicitation to practice prostitution.
(F) Video voyeurism as described in section 1801 of Title 18.
(G) Possession, production, or distribution of child pornography.
(H) Criminal sexual conduct involving a minor, or the use of the
Internet to facilitate or attempt such conduct.
(I) Any conduct that by its nature is a sex offense against a minor.
Id

7. Burgee argues that subsection (I) is the only potentially applicable definition while the
government contends that Burgee's prior conviction falls within subsections(H) and
(1). Because this ease can be resolved under § 20911(7)(1), this Court focuses on the
definition in that subsection.

8. The parties disagree over how to decide whether Burgee's state conviction involved
"conduct that by its nature is a sex offense against a minor." Burgee advocates for the
"categorical approach," imder which courts consider the statutory definition of the

crime of conviction but ignore the underlying faets.^ See Hill. 820 F.3d at 1005. The
government, on the other hand, argues that this Court must apply a "circumstanee-

speeific approach."

Under that approach, courts may "examine the 'particular

circumstances in which an offender committed the crime on a particular occasion.'"

Id.(quoting Moncrieffe v. Holder. 569 U.S. 184, 202(2013)).

^This Court uses "categorical approach" here to refer to both the categorical and modified
categorical approach. After all, the modified approach "merely helps implement the categorical
approach when a defendant was convicted of violating a divisible statute." Descamps v. United
States. 570 U.S. 254, 263 (2013). The modified categorical approach allows courts to consult a
limited universe of documents to determine which of the predicate offense's altemative elements
formed the basis ofthe defendant's conviction. Id at 261-63.

12

(36a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 13 of 19 PageID #: 250

9. The Eighth Circuit in Hill held that the circumstance-specific approach govems
whether a prior offense constitutes "conduct that by its nature is a sex offense against
a minor." Id Looking to the text of § 20911(7)(I), the Eighth Circuit concluded that
this subsection "manifestly invites an examination ofthe specific conduct in which the

defendant engaged." Hill. 820 F.3d at 1005. This conclusion was supported,the Eighth
Circuit reasoned, by SORNA's purpose. Id After all. Congress passed SORNA to
protect children from sex offenders, and it used broad terms to encompass "as many

offenses against children as possible." Id at 1005-06(quoting United States v. Dodge.
597 F.3d 1347, 1355 (11th Cir. 2010)(en banc)). SORNA's "intended breadth," the

Eighth Circuit explained, was illustrated by the headings for the subsection defining a
"sex offense"—"Amie Zyla expansion of sex offense definition"—and the subsection

defining the term "specified offense against a minor"— "Expansion of definition of
'specified offense against a minor' to include all offenses by child predators." Id at
1006.

10. Other circuits have also concluded that § 20911(7)(1) calls for a circumstance-specific

approach. United States v. Price. 777 F.3d 700, 708-09 (4th Cir. 2015)(holding that
the circumstance-specific approach applies to § 20911(7)(1)); Dodge. 597 F.3d at
1353-56 (same); United States v. Mi Kvung Bvun. 539 F.3d 982, 991-92 (9th Cir.

2008)(concluding that the noncategorical approach applies to determine the age ofthe
victim under § 20911(7)(1)). The Eighth Circuit in Hfil cited Price. Dodge, and Bvun

with approval when deciding that the circumstance-specific approach govems whether
a prior offense involved "conduct that by its nature is a sex offense against a minor."
Hill. 820F.3datl005.

13

(37a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 14 of 19 PageID #: 251

11. Burgee acknowledges that the Eighth Circuit has applied the circumstance-specific
approach, but argues that the Supreme Court's recent decision in Sessions v. Dimava.
138 S. Ct. 1204 (2018), "casts doubt" on Hill. Decisions by the Eighth Circuit,

however, are binding on district courts within its territory "until overruled by[the] court

en banc, by the Supreme Court, or by Congress." M.M. ex rel. L.R. v. Special Sch.
Dist. No. 1. 512 F.3d 455, 459 (8th Cir. 2008); see also Eulitt ex rel. Eulitt v. Maine.

Dep't of Educ., 386 F.3d 344, 349(1st Cir. 2004)("Until a court of appeals revokes a
binding precedent, a district court within the circuit is hard put to ignore that precedent
unless it has unmistakably been cast into disrepute by supervening authority."); Hood
V. United States. 342 F.3d 861, 864 (8th Cir. 2003)(explaining that the district court
was bound to apply Eighth Circuit precedent).

12. The case on which Burgee relies, Dimava. did not concern SORNA,but rather involved
the definition of a "crime of violence" in 18 U.S.C. § 16. That provision states in

relevant part that a "crime of violence" means: "(b) any other offense that is a felony
and that, by its nature, involves a substantial risk that physical force against the person
or property ofanother may be used in the course ofcommitting the offense." 18 U.S.C.

§ 16(b). hn Dimava. a plurality ofthe Supreme Court cited to the phrase"by its nature"
in § 16(b) when concluding that this subsection requires a categorical approach.
Dimava. 138 S. Ct. at 1217. The Court stated:

Our decisions have consistently understood language in the
residual clauses of both [the Armed Career Criminal Act]
and § 16 to refer to "the statute ofconviction, not to the facts
of each defendant's conduct." Simple references to a
"conviction," "felony," or "offense," we have stated, are
"read naturally" to denote the "crime as generally
committed." And the words "by its nature" in § 16(b) make
that meaning all the clearer. The statute, recall, directs
14

(38a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 15 of 19 PageID #: 252

courts to consider whether an offense, by its nature, poses

the requisite risk of foree. An offense's "nature" means its
"normal and characteristic quality." So § 16(b) tells comfs
to figure out what an offense normally—or, as we have
repeatedly said,"ordinarily"—entails, not what happened to
occur on one occasion.

Dimava. 138 S. Ct. at 1217-18 (plurality opinion)(internal eitations omitted). This
discussion in Dimava cannot be read as overruling Hill. Indeed, the text of § 16(b) is
different from the text of§ 20911(7)(I); § 16(b)focuses on the nature ofthe "offense"

whereas § 20911(7)(I) focuses on the nature of the "conduct." It was § 2091 l(7)(I)'s
reference to the "conduct" underlying a prior conviction, along with SORNA's purpose
and the titles of the relevant subsections, that drove the Eighth Cireuit's decision in

Hill. Dimava does not undermine this rationale to sueh a degree that this Court can

ignore Hill's holding."^
13. Burgee also argues that this Court must apply the categorical approach to avoid
violating his Sixth Amendment rights. The Fifth and Sixth Amendments guarantee

Burgee's right to have a jury deeide every element of the crime with which he is
charged. United States v. Gaudin, 515 U.S. 506, 509—11 (1995). An "element" for
Sixth Amendment purposes includes any fact, other than a prior eonviction, that
increases the statutory maximum or rninimum sentence. Allevne v. United States, 570
U.S. 99,103,111 n.l (2013). The Sixth Amendment's requirement that every element
of a erime be submitted to a jury is one reason the Supreme Court has used the

categorical approach in the sentencing context. Descamps v. United States. 570 U.S.

'hrhe Supreme Court's reeent decision in United States v. Davis. 139 S. Ct. 2319(2019),involved
18 U.S.C. § 924(c)(3), a statute which, like § 16(b), focuses on the nature of the "offense." As
such, Davis cannot be read as overruling Hill.
15

(39a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 16 of 19 PageID #: 253

254, 267, 269 (2013). The Supreme Court, for instance, has applied the categorical
approach to a statute that imposes a mandatory penalty if a sentencing judge finds that
the defendant has three prior convictions for a"violent felony."

18 U.S.C. § 924(e);

Descamns, 570 U.S. at 257. The categorical approach limits the judge's inquiry to the
elements of the prior convictions rather than the cireumstanees underlying them, and
thus protects a defendant's right to have ajury decide every fact or "element"that could
increase his sentence. Descamns. 570 U.S. at 267, 269. As the Supreme Court

recognized in Descamns. however, any judicial fact-finding that goes beyond simply
identifying a prior conviction through the categorical or modified categorical approach

"would (at the least) raise serious Sixth Amendment concerns." Id at 269. These
eoneems, the Supreme Court explained, militate against "allowing a sentencing court

to make a disputed determination about what the defendant and state judge must have
understood as the factual basis ofthe prior plea." Id (cleaned up)(quoting Shepard v.
United States, 544 U.S. 13, 25 (2005)(plurality opinion)). Burgee argues that these
same Sixth Amendment concerns require this Court to apply the categorical approach
to determine whether his prior conviction involved "conduct that by its nature is a sex
offense against a minor."

14. The Fourth Circuit rejected this argument in Price. It reasoned that the cireumstance-

specific approach did not raise any Sixth Amendment concerns because the defendant
was still "entitled to go to trial and have a jury determine beyond a reasonable doubt

whether his [prior] conviction was for a sex offense under SORNA."^ Price. 777 F.3d
at 710. Had the defendant gone to trial, the Fourth Circuit reasoned, the jury would

'The defendant in Price waived that right by pleading guilty. Price. 777 F.3d at 710.
16

(40a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 17 of 19 PageID #: 254

have considered the facts underlying the defendant's prior conviction"and then decided
whether that evidence satisfied SORNA's definition ofa'sex offense.

Id The Fourth

Circuit's holding finds support in the Supreme Court's approach to statutes that require
more than a simple review ofthe elements of a prior offense.

Niihawan v. Holder.

557 U.S. 29, 40(2009)(dismissing Sixth Amendment concerns over a circumstance-

specific approach to determining loss under a deportation statute because a jury would
need to determine loss in a subsequent prosecution for illegal reentry); United States v.

Haves, 555 U.S. 415, 426 (2009)(holding that a predicate offense under 18 U.S.C. §

922(g)(9) did not need to have a domestic relationship as an element but noting that the
government would need to "prove beyond a reasonable doubt" that the victim of the
predicate offense had the specified domestic relationship to the defendant).

15. Burgee also has argued that § 20911(7)(I) is impermissibly vague. "A statute is void
for vagueness if it: (1) fails to provide a person of ordinary intelligence fair notice of
what is prohibited, or(2)it is so standardless that it authorizes or encourages seriously
discriminatory enforcement." United States v. Paul, 885 F.3d 1099, 1105 (8th Cir.)

(citation omitted), cert, denied, 139 S. Ct. 290 (2018). Although Burgee makes both
an as-applied and facial attack on § 20911(7)(1), he acknowledges that he must show
that the statute is vague "as applied to his particular conduct"to succeed. United States
V. Bramer, 832 F.3d 908, 909 (8th Cir. 2016)(per curiam); see also United States v.
Frison, 825 F.3d 437,442(8th Cir. 2016)("We consider whether a statute is vague as

applied to the particular facts at issue, for a plaintiff who engages in some conduct that
is clearly proscribed cannot complain of the vagueness of the law as applied to the
conduct of others." (cleaned up)(citation omitted)).

17

(41a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 18 of 19 PageID #: 255

16. Under an as-applied challenge, courts look "to whether the statute gave adequate
warning, under a specific set of facts, that the defendant's behavior was a criminal
offense." United States v. Pahner, 917 F.3d 1035, 1038—39 (8th Cir. 2019)(citation

omitted). Burgee has argued that the phrase "conduct that by its nature is a sex offense
against a minor" is ambiguous and that it is "unclear what conduct would qualify"

under § 20911(7)(I). He has contended that the "evidence" is not "sufficient that [his]
conviction brings him within the scope of SORNA's residual clause or that he could
know that it did."

17. The only court of appeals to consider the issue held that § 20911(7)(I) is not vague.
United States v. Schofield, 802 F.3d 722, 730-31 (5th Cir. 2015)(per curiam).

18. Section 20911(7)(I) is not vague when applied to the particular conduct in which
Burgee engaged. Burgee's criminal conviction qualifies as a sex offense, and Burgee's
decision not to update his sex offender registration within three days of absconding
from supervision is conduct clearly proscribed by SORNA.

19. Ultimately, the elements ofthe crime offailure to register as a sex offender, as charged
in the indictment are the following: 1) that Burgee was convicted of a sex offense; 2)

that Burgee traveled in interstate commerce; and 3) that Burgee knowingly failed to
register as a sex offender and update his registration as a sex offender during the time
fi-ame ofSeptember 18, 2016, through October 11, 2018, covered by the indictment.
20. For the reasons explained above. Burgee had been convicted of a sex offense within
the meaning ofSORNA,and his sexual exploitation ofa minor conviction in state court
qualifies as a sex offense under SORNA.

18

(42a)

Case 3:18-cr-30164-RAL Document 47 Filed 07/10/19 Page 19 of 19 PageID #: 256

21. Burgee did not contest either the second or the third elements ofthe crime charged,that
Burgee traveled in interstate commerce during the time frame alleged in the indictment,

and that Burgee failed to register or update his registration as a sex offender during that
time.

22. The Government has established beyond a reasonable doubt that Burgee is guilty of
failure to register as a sex offender as alleged in the indictment.

23. If any ofthese Conclusions of Law should have been characterized as Findings ofFact,
they are incorporated in the Findings of Fact above.
III.

Conclusion

Based on the Findings of Fact and Conclusions of Law as stated above, it is hereby
ORDERED, ADJUGED AND DECREED that KT Burgee, a/k/a Kape Teal Burgee, is
fotmd guilty offailure to register as a sex offender as set forth in the indictment in this case.

DATED this lO'*' day ofJuly, 2019.
BY THE COURT:

ROBERTO A. LANGE'
UNITED STATES DISTRICT JUDGE

19

(43a)

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3034
United States of America
Appellee
v.
KT Burgee, also known as Kape Teal Burgee
Appellant
______________________________________________________________________________
Appeal from U.S. District Court for the District of South Dakota - Pierre
(3:18-cr-30164-RAL-1)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
April 26, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

(44a)
Appellate Case: 19-3034

Page: 1

Date Filed: 04/26/2021 Entry ID: 5029022

34 U.S.C. § 20911
§ 20911. Relevant definitions, including Amie Zyla expansion of sex
offender definition and expanded inclusion of child predators
In this subchapter the following definitions apply:
(1) Sex offender
The term “sex offender” means an individual who was convicted of a sex
offense.
(2) Tier I sex offender
The term “tier I sex offender” means a sex offender other than a tier II or tier
III sex offender.
(3) Tier II sex offender
The term “tier II sex offender” means a sex offender other than a tier III sex
offender whose offense is punishable by imprisonment for more than 1 year
and—
(A) is comparable to or more severe than the following offenses, when
committed against a minor, or an attempt or conspiracy to commit
such an offense against a minor:
(i) sex trafficking (as described in section 1591 of Title 18);
(ii) coercion and enticement (as described in section 2422(b) of
Title 18);
(iii) transportation with intent to engage in criminal sexual
activity (as described in section 2423(a))1 of Title 18;
(iv) abusive sexual contact (as described in section 2244 of Title
18);
(B) involves—
(i) use of a minor in a sexual performance;
(ii) solicitation of a minor to practice prostitution; or

(45a)

(iii) production or distribution of child pornography; or
(C) occurs after the offender becomes a tier I sex offender.
(4) Tier III sex offender
The term “tier III sex offender” means a sex offender whose offense is
punishable by imprisonment for more than 1 year and—
(A) is comparable to or more severe than the following offenses, or an
attempt or conspiracy to commit such an offense:
(i) aggravated sexual abuse or sexual abuse (as described in
sections 2241 and 2242 of Title 18); or
(ii) abusive sexual contact (as described in section 2244 of Title
18) against a minor who has not attained the age of 13 years;
(B) involves kidnapping of a minor (unless committed by a parent or
guardian); or
(C) occurs after the offender becomes a tier II sex offender.
(5) Amie Zyla expansion of sex offense definition
(A) Generally
Except as limited by subparagraph (B) or (C), the term “sex offense”
means—
(i) a criminal offense that has an element involving a sexual act
or sexual contact with another;
(ii) a criminal offense that is a specified offense against a minor;
(iii) a Federal offense (including an offense prosecuted under
section 1152 or 1153 of Title 18) under section 1591, or chapter
109A, 110 (other than section 2257, 2257A, or 2258), or 117, of
Title 18;
(iv) a military offense specified by the Secretary of Defense
under section 115(a)(8)(C)(i) of Public Law 105-119 (10 U.S.C.
951 note); or

(46a)

(v) an attempt or conspiracy to commit an offense described in
clauses (i) through (iv).
(B) Foreign convictions
A foreign conviction is not a sex offense for the purposes of this
subchapter if it was not obtained with sufficient safeguards for
fundamental fairness and due process for the accused under guidelines
or regulations established under section 20912 of this title.
(C) Offenses involving consensual sexual conduct
An offense involving consensual sexual conduct is not a sex offense for
the purposes of this subchapter if the victim was an adult, unless the
adult was under the custodial authority of the offender at the time of
the offense, or if the victim was at least 13 years old and the offender
was not more than 4 years older than the victim.
(6) Criminal offense
The term “criminal offense” means a State, local, tribal, foreign, or military
offense (to the extent specified by the Secretary of Defense under section
115(a)(8)(C)(i) of Public Law 105-119 (10 U.S.C. 951 note)) or other criminal
offense.
(7) Expansion of definition of “specified offense against a minor” to
include all offenses by child predators
The term “specified offense against a minor” means an offense against a
minor that involves any of the following:
(A) An offense (unless committed by a parent or guardian) involving
kidnapping.
(B) An offense (unless committed by a parent or guardian) involving
false imprisonment.
(C) Solicitation to engage in sexual conduct.
(D) Use in a sexual performance.
(E) Solicitation to practice prostitution.
(F) Video voyeurism as described in section 1801 of Title 18.

(47a)

(G) Possession, production, or distribution of child pornography.
(H) Criminal sexual conduct involving a minor, or the use of the
Internet to facilitate or attempt such conduct.
(I) Any conduct that by its nature is a sex offense against a minor.
(8) Convicted as including certain juvenile adjudications
The term “convicted” or a variant thereof, used with respect to a sex offense,
includes adjudicated delinquent as a juvenile for that offense, but only if the
offender is 14 years of age or older at the time of the offense and the offense
adjudicated was comparable to or more severe than aggravated sexual abuse
(as described in section 2241 of Title 18), or was an attempt or conspiracy to
commit such an offense.
(9) Sex offender registry
The term “sex offender registry” means a registry of sex offenders, and a
notification program, maintained by a jurisdiction.
(10) Jurisdiction
The term “jurisdiction” means any of the following:
(A) A State.
(B) The District of Columbia.
(C) The Commonwealth of Puerto Rico.
(D) Guam.
(E) American Samoa.
(F) The Northern Mariana Islands.
(G) The United States Virgin Islands.
(H) To the extent provided and subject to the requirements of section
20929 of this title, a federally recognized Indian tribe.

(48a)

(11) Student
The term “student” means an individual who enrolls in or attends an
educational institution, including (whether public or private) a secondary
school, trade or professional school, and institution of higher education.
(12) Employee
The term “employee” includes an individual who is self-employed or works for
any other entity, whether compensated or not.
(13) Resides
The term “resides” means, with respect to an individual, the location of the
individual's home or other place where the individual habitually lives.
(14) Minor
The term “minor” means an individual who has not attained the age of 18
years.

(49a)

